n
17

IN THE SUPREME COURT OF THE UNITED STATES
No.

Henry Eugene Gossage v. Office of Personnel Management

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(g)
I, Henry E. Gossage, pro se veteran, hereby certify that, according to the word-count
tool in Microsoft Word, the Brief of Petitioner consists of 3860 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The Brief
therefore complies with Rule 33.1(g).

PROOF OF SERVICE
I, Henry E. Gossage, pro se veteran, hereby declare that on the certify that on this
U_ day of May 2021, submitted Petition for Certiorari and Affidavit and Motion to
Proceed as a Veteran, to Ann C. Motto, Office of Personnel Management Trial
Attorney Civil Division in the above style proceeding, eleotronically vi; -mail.

ptm

HenrydiUGossage '
Pro se Veteran
9421 Johnson Pt Lp NE
Olympia, WA 98516
(360) 951-7826
hegossage @gmail.com

